LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 17, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-1063: SHKELZËN BERISHA V. GUY LAWSON, ET AL.
Dear Sir or Madam:

I hereby certify that at the request of counsel for the Respondents, on May 17,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Petitioner:
PETITIONER:
Roy Arie Katriel
The Katriel Law Firm, P.C.
2262 Carmel Valley Road
Suite 201
Del Mar, CA 92014
619-363-3333
rak@katriellaw.com
This service was effected by depositing one copy of a Respondents' Brief in
Opposition to Petition for Writ of Certiorari in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 17th day of May 2021.

